U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brian Fierro v. United States of America
S.Ct. No. 21-5457
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2021, and placed on the docket on August 24, 2021. The government’s response is due on
September 23, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 25, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5457
FIERRO, BRIAN
USA

WENDI L. OVERMYER
OFFICE OF THE PUBLIC DEFENDER
411 B. BONNEVILLE
SUITE 250
LAS VEGAS, NV 89101
702-388-6577
WENDI_OVERMYER@FD.ORG

